Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 





 ROCKFORD HUMAN SERVICES DID 

 NOT ALWAYS CHARGE ALLOWABLE 

COSTS TO THE COMMUNITY SERVICES 

  BLOCK GRANT – RECOVERY ACT 

            PROGRAM 


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov. 
                                          




                                                    Sheri L. Fulcher

                                               Regional Inspector General 


                                                        July 2013 

                                                      A-05-12-00012 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY 


BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provided $1 billion to the Community Services Block Grant (CSBG) program for fiscal years
(FY) 2009 and 2010. As with annually appropriated CSBG funds, Recovery Act funds were to
be used to reduce poverty, revitalize low-income communities, and help low-income Americans.
In addition, CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program. The CSBG
program funds a State-administered network of more than 1,100 local community action
agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty.

In the State of Illinois, the Department of Commerce and Economic Opportunity, Office of
Community Development (State) was responsible for approving CAAs’ applications for CSBG
Recovery Act funds and monitoring CAAs’ compliance with program requirements. Under the
Recovery Act, the State was awarded $47,232,781 in CSBG funds for FYs 2009 and 2010.

The City of Rockford, Human Services Department (Rockford) is the designated public CAA
that provides services to individuals, families and neighborhoods in Rockford as well as in
greater Winnebago and Boone Counties in Illinois. For the period May 1, 2009, through
September 30, 2010, the State awarded Rockford $1,062,800 in CSBG Recovery Act funds (the
award).

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the awards, including compliance with various cost principles. The CSBG Act
requires that States receiving CSBG funds ensure that cost and accounting standards of the
Office of Management and Budget apply to a recipient of the funds. Local governments are
subject to 45 CFR pt. 74. These regulations state that the allowability of costs will be
determined in accordance with 2 CFR pt. 225, Cost Principles for State, Local, and Indian Tribal
Governments. To be allowable under an award, costs must be reasonable for the performance of
the award and allocable to the award under these principles.

OBJECTIVE

Our objective was to determine whether selected CSBG Recovery Act costs that the State
claimed for Rockford’s program expenditures were allowable under the terms of the Recovery
Act award and applicable Federal requirements.




                                               i
SUMMARY OF FINDINGS

Of the $598,888 in CSBG Recovery Act costs that the State claimed on behalf of Rockford and
that we reviewed, $251,796 was allowable under the terms of the Recovery Act award and
applicable Federal requirements. The State claimed $205,296 in unallowable costs on behalf of
Rockford, including:

     	 $123,530 in costs that were inadequately documented,

     	 $72,669 in costs charged outside the award period, and

     	 $9,097 in entertainment costs.

In addition, the State claimed $141,796 in costs that may not have been allocable to the Recovery
Act award and thus were potentially unallowable.

The unallowable costs claimed on behalf of Rockford occurred because Rockford did not follow
its policies and procedures requiring costs be supported with source documentation, as well as
comply with Recovery Act award and Federal requirements. The potentially unallowable costs
the State claimed on behalf of Rockford occurred because Rockford did not have adequate levels
of review in place to ensure that costs charged to the Recovery Act award, including
subcontractor costs, were properly allocated in compliance with 2 CFR pt. 225.

RECOMMENDATIONS

We recommend that the State:

   	 return to the Federal Government unallowable costs totaling $205,296,

   	 work with Rockford to determine what portion of the $141,796 is allowable and refund to
      the Federal government any amount determined to be unallowable,

   	 ensure that Rockford revises its policies and procedures regarding the adequate
      documentation of all costs charged under Federal awards and the charging of costs during
      the award period, and

   	 ensure that Rockford revises its monitoring procedures to ensure that costs charged to
      Federal awards, including subcontractor costs, are in compliance with applicable Federal
      requirements.

ROCKFORD COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, Rockford did not concur with our first recommendation,
did not address our second recommendation, and concurred with our third and fourth
recommendations. Regarding our first recommendation, Rockford provided additional


                                               ii
documentation to support salary, leased vehicle, and a portion of the supply costs that we
determined to be inadequately documented.

After reviewing and verifying the additional documentation provided by Rockford, we maintain
the costs claimed for salary and supplies are inadequately documented. For the leased vehicle
costs, Rockford provided additional documentation to support $10,000 in costs claimed. We
accepted $4,942 and determined the remaining costs of $5,058 were incurred outside the
Recovery Act budget period. The findings in this report have been updated to reflect the
acceptance of the supported costs. As a result, we recommend that the State reimburse $205,296
to the Federal Government.

STATE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State partially concurred with our first two
recommendations and concurred with our last two recommendations. Regarding the first
recommendation, the State reviewed Rockford’s Recovery Act ledgers and determined that
$6,615 in entertainment costs (unused movie tickets) were “returned to the Recovery Act”; thus,
the State believes such costs should be allowable. Regarding the second recommendation, the
State worked with Rockford to develop detailed timesheets allocating computer usage charges;
thus, the State believes that $41,805 in such charges should be allowable. Nothing in the State’s
comments caused us to revise our findings and recommendations.




                                                iii
                                                  TABLE OF CONTENTS 



INTRODUCTION........................................................................................................................ .. 1 

          BACKGROUND ................................................................................................................. 1 

                     The American Recovery and Reinvestment Act...................................................... 1 

                     Community Services Block Grant Program ........................................................... 1 

                     Illinois Department of Commerce and Economic Opportunity .............................. 1 

                     City of Rockford, Human Services Department ...................................................... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................... 2 

               Objective ..................................................................................................................2 

               Scope ....................................................................................................................... 2 

               Methodology ........................................................................................................... 2 


FINDINGS AND RECOMMENDATIONS ................................................................................ 3 

          UNALLOWABLE COSTS ....... ... ..................... ... ...................... ... ..................... ... .............. 4 

              Federal Requirements ............................................................................................ .4 

              Costs Inadequately Documented ............................................................................ .4 

              Costs Incurred Outside the Recovery Act Budget Period ........................................ 5 

              Costs Charged for Entertainment ............................................................................. 5 


          POTENTIALLY UNALLOWABLE COSTS .....................................................................6 

               Costs Potentially Not Allocable .............. ... ..................... ... ..................... ... ............. 6 


          LACK OF ADEQUATE MONTORING PROCEDURES .................................................6 


          RECOMMENDATIONS .....................................................................................................6 


          ROCKFORD COMMENTS AND 

           OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................7 


          STATE COMMENTS AND 

           OFFICE OF INSPECTOR GENERAL RESPONSE .............. ... ..................... ... .............. 7 


APPENDIXES

          A: ROCKFORD COMMENTS

          B: STATE COMMENTS




                                                                     lV
                                      INTRODUCTION 


BACKGROUND

The American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Services Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

Community Services Block Grant Program

The CSBG program was reauthorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998, P. L. No. 105-285 (CSBG Act), to provide funds
to alleviate the causes and conditions of poverty in communities. Within the U.S. Department of
Health and Human Services, the Administration for Children and Families (ACF), Office of
Community Services, administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,100 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty. Recovery Act award funds were intended
to cover additional costs for the same types of services.

Illinois Department of Commerce and Economic Opportunity

In the State of Illinois, the Department of Commerce and Economic Opportunity, Office of
Community Development (State) was responsible for approving CAAs’ applications for CSBG
Recovery Act funds and monitoring CAAs’ compliance with Federal requirements. Under the
Recovery Act, the State was awarded $47,232,781 in CSBG funds for FYs 2009 and 2010.

City of Rockford, Human Services Department

The City of Rockford, Human Services Department (Rockford) is the designated public CAA for
Winnebago and Boone Counties. Rockford provides services to individuals and families within
Rockford as well as in greater Winnebago and Boone Counties. CSBG services are administered
by the Community Services Division. Its goal is to promote self-help activities and encourage
self-sufficiency among low income individuals and families.

For the period May 1, 2009, through September 30, 2010, the State awarded Rockford
$1,062,800 in CSBG Recovery Act funds (the award).

                                               1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected CSBG Recovery Act costs that the State
claimed for Rockford’s program expenditures were allowable under the terms of the Recovery
Act award and applicable Federal requirements.

Scope

We reviewed $598,888 of the $1,062,800 claimed by Rockford under its CSBG Recovery Act
award with the State of Illinois for the period of May 1, 2009, through September 30, 2010. This
review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided by the Recovery Act. We did not review the overall internal control
structure of the State or of Rockford. Rather, we reviewed only the internal controls that
pertained to our objective.

We conducted our audit from November 2011 to March 2012 and performed fieldwork at
Rockford’s office in Rockford, Illinois.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations and guidance;

       reviewed the State’s CSBG ARRA State plan for the period May 1, 2009, through
        September 30, 2010;

       reviewed contractual agreements between the State and Rockford for the period May 1,
        2009, through September 30, 2010; 


       reviewed Rockford’s board of directors’ meeting minutes; 


       reviewed Rockford’s accounting policies and procedures; 


       interviewed State officials to gain an understanding of their fiscal and program

        monitoring procedures;

       interviewed Rockford officials to gain an understanding of the costs charged under the
        award; 


       reviewed the State’s fiscal and program monitoring reports; 


       reviewed correspondence between the State and Rockford officials; 


                                                 2

   	 reviewed Rockford’s audited financial statements for calendar year 2009 and 2010;

   	 reconciled the costs that the State claimed under the award with Rockford’s general
      ledger;

   	 judgmentally selected and reviewed 127 transactions totaling $277,469 ($13,785 in salary
      and related costs and $263,684 in non-salary costs) based on risk factors including
      whether the transactions:

           o	 were high dollar;

           o	 were recorded near the end of the award period or outside of the award period; or

           o	 appeared to be disproportionately allocated to the CSBG Recovery act program;

   	 judgmentally selected and reviewed seven subcontractor agreements totaling $321,419
      based on the first risk factor noted above; and

    	 discussed findings with the State and Rockford officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Of the $598,888 in CSBG Recovery Act costs that the State claimed on behalf of Rockford and
that we reviewed, $251,796 was allowable under the terms of the Recovery Act award and
applicable Federal requirements. The State claimed $205,296 in unallowable costs on behalf of
Rockford, including:

     	 $123,530 in costs that were inadequately documented,

     	 $72,669 in costs charged outside the award period, and

     	 $9,097 in entertainment costs.

In addition, the State claimed $141,796 in costs that may not have been allocable to the Recovery
Act award and thus were potentially unallowable.

The unallowable costs claimed on behalf of Rockford occurred because Rockford did not follow
its policies and procedures requiring costs be supported with source documentation, as well as
comply with Recovery Act award and Federal requirements. The potentially unallowable costs

                                                3

the State claimed on behalf of Rockford occurred because Rockford did not have adequate levels
of review in place to ensure that costs charged to the Recovery Act award, including
subcontractor costs, were properly allocated in compliance with 2 CFR pt. 225.

UNALLOWABLE COSTS

Federal Requirements

Section 678D(a)(1)(B) of the CSBG Act requires that States that receive CSBG funds ensure that
cost and accounting standards of the Office of Management and Budget (OMB) apply to a
recipient of the funds under this subtitle. Local governments are subject to 45 CFR pt. 74.
Federal regulations (45 CFR § 74.27(a)) state that the allowability of costs incurred by local
governments will be determined in accordance with 2 CFR pt. 225, Cost Principles for State,
Local, and Indian Tribal Governments.

Pursuant to 2 CFR pt. 225, App. A, C.1.a., C.3.a. and C.1.j., to be allowable under a Federal
award, program costs must be reasonable, allocable, and adequately documented.

A cost that benefits both a Federal award and other work is allocable to a Federal award if the
cost can be distributed in reasonable proportion to the benefits received. Any cost allocable to a
particular award or other cost objective may not be shifted to other Federal awards to overcome
funding deficiencies, or to avoid restrictions imposed by law or by terms of the award (2 CFR
225, App. A, C.3.a., C.3.c.).

Pursuant to 2 CFR pt. 225, App. B, 8.h.(4), salary and wage costs should be based on
documented payrolls and the distribution to awards must be supported by personnel activity
reports unless a substitute system has been approved by the cognizant Federal agency.

Pursuant to 2 CFR pt. 225, App. B, 14, the costs of entertainment, including amusement,
diversion, and social activities and any costs directly associated with such costs (such as tickets
to shows) are unallowable.

Pursuant to 45 CFR 74.71(b), grantees must liquidate all obligations incurred under the award
not later than 90 calendar days after the funding period or the date of completion as specified in
the terms and conditions of the award or in agency implementing instructions unless an extension
is granted by the HHS awarding agency. Further, ACF Information Memorandum Transmittal
No. 109, dated April 9, 2009, states that, in obligating and expending CSBG Recovery Act
funds, “… services must be provided on or before September 30, 2010, and liquidated on or
before December 29, 2010.”

Costs Inadequately Documented

The Rockford did not adequately document $123,530 in costs claimed to the Recovery Act
award. Rockford entered into an agreement to fund $100,000 for a local neighborhood
development organization. Although the organization stated this amount went towards salaries,
it did not provide personnel activity reports to support such costs. For $23,530 in costs incurred

                                                 4

by subcontractors, neither Rockford nor its subcontractors were able to provide invoices or
receipts to adequately support the costs. For example, a subcontractor was awarded $15,000 to
provide educational and social services to 100 low income youths within Boone and Winnebago
counties, however no documentation was provided for costs incurred because the organization
closed its business and the director was not able to be located. Rockford claimed $8,530 in
subcontractor costs such as supplies and meeting expenses for which documentation supporting
the costs was inadequate.

Rockford claimed these unallowable costs to the Recovery Act award because it did not follow
its policies and procedures requiring costs be supported with source documentation. Due to the
lack of adequate documentation, we were unable to determine if these costs were incurred
specifically for the purpose ofthe Recovery Act award, benefitted the CSBG program, or were
necessary for the overall operation of the organization.

Costs Incurred Outside the Recovery Act Budget Period

Rockford charged $72,669 in costs to the Recovery Act award that were incurred outside the
budget period of May 1, 2009, through September 30, 2010. Of this amount, we obtained
receipts totaling $72,134 which consisted of various subcontractor expenses for personnel,
supplies, meeting and vehicle lease expenses made prior to and after the contracted period.
Rockford was able to provide documentation for program expenses totaling $535 , however, the
receipts showed that the purchases were made after September 30, 2010.

Although Rockford had policies and procedures in place to address the monitoring of financial
reports, its policies and procedures did not specifically address the Recovery Act requirement
that only purchases made within the award period were allowable.

Costs Charged for Entertainment
                                 1
Rockford charged $9,097 in entertainment costs to the Recovery Act award. The entertainment
costs included the rental of a movie theater which was used to host a movie event for a local
youth group. In addition, costs were claimed for paintballing relating to a local youth group
retreat. Rockford did not provide an explanation for us to determine how these costs related to
the overall goal ofthe Recovery Act award.

Rockford claimed these unallowable costs to the Recovery Act award because it did not perform
an adequate review of expenses to ensure that costs claimed were in compliance with Federal
requirements.




1
    Entertainment costs charged to the program include movie theater rental ($8,717) and paintballing ($380).

                                                           5

POTENTIALLY UNALLOWABLE COSTS

Costs Potentially Not Allocable

Rockford allocated $141,796 in certain costs claimed by Rockford and subcontractors that may
not have been allocable to the Recovery Act award. Neither Rockford nor the subcontractors
were able to provide adequate documentation to support the full charge to the CSBG award. For
example, Rockford directly charged $41,805 to the award for computer usage costs which may
not be entirely allocable to this award. Also, Rockford directly charged $4,000 of rent costs for
an outreach office however, an allocation methodology used to determine the rent costs was not
provided. These computer usage and rent costs benefitted multiple programs while the
documentation provided was inadequate to show that these costs related solely to the Recovery
Act award. In addition, Rockford charged $95,991 in subcontractor salary and training costs that
were allocated to the Recovery Act award. The subcontractor does not require personnel activity
reports for its organization. Furthermore, the subcontractor directly charged training expenses to
the award. Without complete and accurate supporting documentation regarding personnel
activity, we could not determine whether the subcontractor salary and training costs were
allocable to the Recovery Act award in reasonable proportion to the benefits received.

Rockford charged these potentially unallowable costs to the Recovery Act award because it had
inadequate monitoring procedures to ensure that costs charged to the Recovery Act award,
including subcontractor costs, were properly allocated in compliance with 2 CFR pt. 225. We
are deferring the $141,796 in questionable charges to the State, which should determine the
allowable amount and refund the unallowable amount to the Federal government.

LACK OF ADEQUATE MONITORING PROCEDURES

The State did not have adequate monitoring procedures to ensure that the CSBG Recovery Act
costs claimed on behalf of Rockford’s program expenditures were allowable, allocable, and
adequately supported in accordance with terms of the Recovery Act award and applicable
Federal requirements. The State conducted on-site fiscal reviews of Rockford’s program
expenditures and concluded that the transactions it reviewed were traced without difficulty. The
State however, did not review subcontractor expenses and only verified that a contract existed.
We determined that Rockford was not always in compliance with the CSBG ARRA Federal and
State rules, regulations and policies. Rockford claimed costs that were not supported with
adequate documentation, costs that were incurred outside the Recovery Act award period as well
as costs that were unallowable under Federal requirements. In addition, Rockford claimed
potential unallowable costs that may not be entirely allocable to the Recovery Act award.

RECOMMENDATIONS

We recommend that the State:

      return to the Federal Government unallowable costs totaling $205,296,



                                                6

   	 work with Rockford to determine what portion of the $141,796 is allowable and refund to
      the Federal government any amount determined to be unallowable,

   	 ensure that Rockford revises its policies and procedures regarding the adequate
      documentation of all costs charged under Federal awards and the charging of costs during
      the award period, and

   	 ensure that Rockford revises its monitoring procedures to ensure that costs charged to
      Federal awards, including subcontractor costs, are in compliance with applicable Federal
      requirements.

ROCKFORD COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, Rockford did not concur with our first recommendation,
did not address our second recommendation, and concurred with our third and fourth
recommendations. Regarding our first recommendation, Rockford provided additional
documentation to support salary, leased vehicle, and a portion of the supply costs that we
determined to be inadequately documented. The Agency’s written comments are included as
Appendix A.

After reviewing and verifying the additional documentation provided by Rockford, we maintain
the costs claimed for salary and supplies are inadequately documented. For the leased vehicle
costs, Rockford provided additional documentation to support $10,000 in costs claimed. We
accepted $4,942 and determined the remaining costs of $5,058 were incurred outside the
Recovery Act budget period. The findings in this report have been updated to reflect the
acceptance of the supported costs. As a result, we recommend that the State reimburse $205,296
to the Federal Government.

STATE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State partially concurred with our first two
recommendations and concurred with our last two recommendations. Regarding the first
recommendation, the State reviewed Rockford’s Recovery Act ledgers and determined that
$6,615 in entertainment costs (unused movie tickets) were “returned to the Recovery Act”; thus,
the State believes such costs should be allowable. Regarding the second recommendation, the
State worked with Rockford to develop detailed timesheets allocating computer usage charges;
thus, the State believes that $41,805 in such charges should be allowable. The State’s comments
are included in their entirety as Appendix B.

Nothing in the State’s comments caused us to revise our findings and recommendations. On
numerous occasions, we requested documentation related to the return of entertainment costs to
the Recovery Act award however, the State was unable to provide adequate documentation to
support that the $6,615 was returned. For the $41,805 in computer usage charges, the detailed
timesheets the State developed with Rockford were not available during the course of our review
and thus, we are unable to determine what portion of these charges are allowable under the
Recovery Act award.
                                               7

APPENDIXES 

                                                                                                                      Page 1 of2

                                 APPENDIX A: ROCKFORD COMMENTS 





                                                                                                      George Davis
                                                                                                      Executive Director
                                                                                                      Human Services Department




           March 5, 2013



           Sheri L. Fulcher 

           Regional Inspector General for Audit Services 

           Department of Health & Human Services 

           Office of Audit Services, Region V 

           233 North Michigan, Suite 1360 

           Chicago, IL 60601 


           RE: Report A-05-12-00012


           Dear Ms. Fulcher:

           This letter is in response to your letter and draft report dated February 27, 2013 titled "Rockford
           Human SeNices Did Not Always Charge Allowable Costs to the Community Services Block
           Grant-Recovery Act Program". Your letter and report were received by our Department on
           Friday, March 1, 2013.

           While we acknowledge that our documentation of costs fell short of requirements in a number
           of cases, we wish to point out that we followed the requirements for documentation as we
           understood them at the time. The haste with which Recovery Act programs and spending were
           required to be implemented and the desire to minimi.ze undue administrative expenses resulted
           in shortfalls that are cl:ear in hind-site. However, we are confident that all funds administered by
           our Department benefited the major objectives outlined in the Recovery Act in supporting ou:r
           local economy and creating or retaining jobs. We will certainly learn from the results of the
           OIG's monitoring review in terms of ensuring that we have adequate monitoring and
           documentation controls in place and have already implemented several changes in our
           practices - especially as it relates to sub-grants.

           While we found the OIG monitoring process to be thorough, we also experienced a lack of
           clarity from the CSBG Recovery Act guidelines both with our office and with sub-grant
           recipients regarding the audit process. Several communications seemed to be required before
           our office and our sub-grant recipients understood what was being requested and how we could
           respond. While some of this confusion was due to not knowing the expectations up front or




C i ty o f Ro ckford, Il lin ois USA                          612 Nor th Chu r ch Street Rockford. ll l•nois (, 1103-69 15 USA
                                                              (815) 987 -5782 (815) 987 - 5762 fax www.rockfordil.go v
                                                              (815) 987 - 5718 tty
                                                                                                Page 2 of2




internal breakdowns regarding following standard practices, a significant part of the problem
appeared to be the lack of an organized protocol by the auditors. That being said, we do feel
that the auditors provided multiple opportunities to provide information over the course of their
review. It is also important to understand that during this time, the City of Rockford was one of
the ten cities most severely impacted by the Great Recession in the United States, which
severely impacted our resources internally as an organization and as a community. We
continue to struggle econom ically. We are hopeful that will be taken into consideration when
delivering your fina l report and recommendations.

Attached to this letter are additional documents related to several of the disallowed amounts
and we ask you to consider these in making your final determination. These documents
provide additional information related to funding provided to the following organizations:
    Rockford Economic Development Council 

    Rockford YMCA 

    Veteran's Administration 


We appreciate your consideration of these additional documents . Please let me know if you
have additional questions.


Sincerely,




h.;~
Executive Director


PC: Jim Ryan, City Administrator 

    Jennifer Jaeger, Director of Community Services 

    Chuck Freutel, Accountant 

    File 

                                                                                                              Page 1 of 4


                               APPENDIX B: STATE COMMENTS


                                          Illinois
                                          Department of Commerce
                                          & Economic Opportunity
                                          Pat Quinn, Govemor




  April 30, 2013

  Report Number: A-05-12-00012

  Ms. Sheri L. Fulcher 

  Regional Inspector General for Audit Services 

  U.S. Department of Health & Human Services 

  Office of Inspector General 

  233 North Michigan, Suite 1360 

  Chicago, ll 60601 


  Dear Ms. Fulcher:

  This letter is in response to the U.S. Department of Health and Human Services, Office of Inspector 

  General's final report entitled the Rockford Human Services Did Not Alwoys Chorge Allowable Costs 

  to the Community Services Block Grant- Recovery Act Program. 


  The DCEO received $47,232,781 i n 2009 Recovery Act funding. During the same time period as the 

  Recovery Act funds were being spent, DCEO also administered the 2009 and 2010 regular CSBG 

  programs. It shou ld be noted that the DCEO received no administrative funds to administer the 

  Recovery Act funds, and was advised to move quickly to obligate and spend these funds in order to 

  stimulate the economy. 


 Prior to the awarding of Recovery Act grant funds, the department felt" it necessary to meet with
 the Community Action Agencies to provide direction and instruction on the process for awarding 

 funds, the grant allocation, the need for support documentation, suggested work programs with job 

 creation being the emphasis, the importance of preventing duplication of regular CSBG grant funds, 

 and keeping the Recovery Act funds separate from other funds. 


 A process similar to the awarding of regular CSBG grant funds was followed with state CSBG staff 

 reviewing individual Community Action Agency Recovery Act applications and budgets. The first 

 Recovery Act funds were obligated in May 2009. During the course of the Recovery Act, several 

 meetings were held to discuss issues and concerns, and again emphasize the 

 importance of documentation and separation of funds. 


 Following is DCEO's response to the OIG findings although DCEO concurs with most of the OIG 

 findings, with the exception of the finding that relates to entertainment and the one for lack of 

 monitoring. 



                                            www.ildceo.net
         500 East Monroe             100West Randolph Stree~ Suite 3-400       2309 West Main. Suite 118
  5pringfi@ld,lllinois 62701-1643        Chicago,lllinoiJ60601-3219           Marion. llfioois 62959-1180
217n82·7500 ·TOO: 800/785-6055        312/814-7179 ·TOO: 800fl8S-6055      618/997-4394 · TOO: 8001785·6055
                                                                                                   Page 2 of 4



     Fulcher
April 30, 2013
Pa g e 12

UNALLOWABLE COSTS

Costs Inadequately Documented

The OIG finding states that Rockford Human Services did not adequately document $123,530 in
costs claimed to the Recovery Act award. Rockford entered into an agreement to fund $100,000 for
a local neighborhood development organization. Although the organization stated this amount
went towards salaries; it did not provide personnel activity reports to support such costs. For
$23,530 in costs incurred by subcontractors neither Rockford nor its subcontractors were able to
provide invoices or receipts to adequately support the costs.

DCEO Response: The DCEO is in concurrence with this find ing. The DCEO will work with Rockford
and all Community Action Agencies {CAAs) to ensure that all applicable federal rule~ and regulations
specific to the CSBG grant awards are being followed. The DCEO will also work with Rockford to
ensure it is following its own policies and procedures. The DCEO will continue to encourage
Rockford and all CAAs to monitor subcontractors on a regular basis to ensure costs are being
charged correctly, and adequate support documentation is on file.

Subtotal Unallowable Costs: $123,530

Costs Incurred Outside the Recovery Act Budget Period

The OIG finding states that Rockford Human Services charged $72,669 in costs to the Recovery Act
award that were incurred outside the budget period of May 1, 2009, through September 30, 2010.
Of this amount, receipts were obtained totaling $72,669 which consisted of various subcontractor
expenses for personnel, supplies, meeting and vehicle lease expenses made prior to and after the
contracted period.

DCEO Response: The DCEO is in concurrence with this finding. The DCEO will work with Rockford
and all Community Action Agencies to ensure that all applicable federal rules and regulations
specific to the CSBG grant awards are being fol lowed. The DCEO will also work with Rockford to
ensure it is has appropriate policies and procedures that not only address the need for proper
support documentation, but also that expenses must be incurred during the term of the
grant/contract. The DCEO will continue to encourage Rockford and all CAAs to monitor
subcontractors on a regular basis to ensure costs are being charged correctly, adequate support
documentation is on file, and expenses were incurred during the grant/contract term.

Subtotal Unallowable Costs: $72,669

Costs Charged for Entertainment

The OIG finding states that Rockford charged $9,097 in entertainment costs to the Recovery Act
award. The entertainment costs included the rental of a movie theater which was used to host a
movie event for a local youth group. In addition, costs were claimed for paintballing relating to a
local youth group retreat: Rockford did not provide an explanation that allowed the OIG to
determine how these costs related to the overall goal of the Recovery Act award.
                                                                                                     Page 3 of 4



     Fulcher
April 30, 2013
Page J3

DC£0 Response: The DCEO is in concurrence with part of this find ing becau se of lack of
documentation and demonstrated benefit to low-income clients. Th e DCEO concurs with the
paintball finding in the amount of $380. The OCEO has reviewed Rockford Recovery Act ledgers
and see that a total of $6,614.66 was reimbursed for unused movie tickets. Since Rockford is able
to demonstrate the funds were returned to the Recovery Act, the DCEO believes this part of the
finding should be reduced.

Subtotal Unallowable Costs: $2,481.84

Total Unallowable Casts: $198,680.84



POTENTIALLY UNALLOWABLE COSTS

Costs Potentially Not Allocable

The OIG finding states that the Rockford allocated $141,796 in certain costs claimed by Rockford
and subcontractors that may not have been allocable to the Recovery Act award. Neither Rockford
nor the subcontractors were able to provide adequate documentation to support the full charge to
the CSBG award. Without complete and accurate supporting documentation, the OIG could not
determine whether the subcontractor costs were allocable to the Recovery Act award in reasonable
proportion to the benefits received. Of that amount, $41,805 is for computer usage costs which
may not be entire ly allocable to this award.

DC£0 Response: The DCEO is in concurrence with most of this finding. The DCEO did/does conduct
on-site monitor of the computer usage for the Rockford Human Services Department. Since the
DCEO is familiarwith the Rockford CSBG staff and has worked with the Rockford Financial Office,
the DCEO believes these costs ($41,805} should be allowed. The DCEO has worked with Rockford to
develop detailed timesheets that will be used to allocate computer usage charges.

The DCEO will work with Rockford and all Community Action Agencies to ensure that all applicable
federal rules and regulations specific to the C5BG grant awards are being followed . The DCEO will
also work with Rockford to ensure it is following its own policies and procedures.

Total Unallowable Costs: $99,991



LACK OF ADEQUATE MONITORING PROCEDURES

The OIG finding states that the State does not have adequate monitoring procedures to ensure that
the CSBG Recovery Act costs claimed for Rockford' s program expenditures were allowable,
allocable, and adequately supported in accordance with terms of the Recovery Act award and
applicable Federal requirements.

DC£0 Response: Th e DCEO does not concur with this finding. The CSBG Recovery Act funds were
monitored by DCEO CSBG staff for both program and fisca l compliance. The same staff was also
                                                                                                    Page 4 of 4



    Fulcher
April 30, 2013
Page 14
required to monitor the regular CSBG program to ensure compliance. The DCEO received no
administrative funds with which to monitor the Community Action Agencies' use of the Recovery
Act funds, but we made a conscious decision to monitor as t ime would allow because of the
importance of accountability and transparency. The DCEO used regular CSBG funds to conduct
monitoring of the Recovery Act funds although only 2 to 2.5 days were allocated for each visit in

order to conduct a fiscal review of all 36 Community Action Agencies and one statewide migrant
organization. Most of Rockford's findings relate to contracts/subcontracts. Because of the large
injection of Recovery Act funds, CAAs looked for new partnerships which sometimes resulted in
contracts/subcontract. Without Recovery Act administrative resources to hire additional staff,
existing CSBG staff did not have sufficient time to adequately review contracts/subcontracts.




Since the first preliminary OIG reports were received, DCEO has stated during meetings with the
Community Action Agencies the issues <Jnd concerns identified during the OIG reviews, and
provided instruction on correcting or avoiding the situation. DCEO CSBG staff has also updated
monitoring tools to reflect some of the issues identified during the OIG reviews including the review
of contracts. DCEO will continue to provide training and technical assistance when issues or
concerns are identified.


In conclusion, DCEO believes that based on the this review a total of $298,671.84 is unallowable
and should be returned to the U. S. Department of Health and Human Services in unrestricted
funds. Once this report is final, DCEO will instruct Rockford Human Services to reimburse DCEO
with unrestricted funds so that DCEO can reimburse the U.S. Department of Health and Human
Services.

Should you have questions or wish to discuss this response, please feel free to contact Ms. Gail
Hedges at 217/785-1709 or via e-mail at gail.hedges@illinois.gov.

Sincerely,


AM fYI
Adam Pollet,
             ~o Uif ~~--
Acting Director
Illinois Department of Commerce &      Economic Opportunity
500 E. Monroe Street
Springfield, ll 62701


Cc:     Frankie Atwater, Acting Deputy Director, DCEO
        Gail Hedges, CSBG Program Manager
